       Workforce Investment Act
Performance Outcomes Reporting Oversight




                          Office of Inspector General
                          Office of Audit
                          Report No. 06-02-006-03-390
                          Date Issued: September 30, 2002
WIA Performance Outcomes Reporting Oversight


                                                TABLE OF CONTENTS
                                                                                                       Page
ABBREVIATIONS .................................................................................................ii

EXECUTIVE SUMMARY .....................................................................................1

BACKGROUND .....................................................................................................4

OBJECTIVE, SCOPE, AND METHODOLOGY ...................................................6

AUDIT RESULTS ...................................................................................................8

          ETA has little assurance that the state-reported Workforce
          Investment Act performance outcomes data are either accurate
          or verifiable. ..............................................................................................8

          A. Local level: None of the 12 One Stops had adequately documented
             procedures for validation of participant performance data ....................9

          B. State level: Two of four states had not monitored performance data
             at the One Stop case file level..............................................................11

          C. State level: None of the four states we reviewed had undertaken
             procedures to assure the accuracy of their reported
             performance data .................................................................................12

          D. Federal level: ETA limited its regional and national monitoring
             procedures over WIA outcomes data to desk reviews and computer
             edit checks............................................................................................13

RECOMMENDATIONS.......................................................................................16

ETA’s RESPONSE AND OIG’S CONCLUSION................................................17

APPENDIX I:
ETA’s RESPONSE TO OIG’S DRAFT REPORT ...............................................18




U.S. Department of Labor - Office of Inspector General

                                                                      i
WIA Performance Outcomes Reporting Oversight


                                          ABBREVIATIONS


CFR                      Code of Federal Regulations

DOL                      Department of Labor
ETA                      Employment and Training Administration
FM                       Field Memorandum

FY                       Fiscal Year
GAO                      General Accounting Office
GPRA                     Government Performance and Results Act
LWIB                     Local Workforce Investment Board

MIS                      Management Information System
OIG                      Office of Inspector General
OTIS                     Office of Technical and Information Systems
PL                       Public Law

PY                       Program Year
TEGL                     Training and Employment Guidance Letter
WIA                      Workforce Investment Act

WIASRD                   Workforce Investment Act Standardized Record Data




U.S. Department of Labor - Office of Inspector General

                                                         ii
WIA Performance Outcomes Reporting Oversight


                                          EXECUTIVE SUMMARY

The Government Performance and Results Act (GPRA) requires that each Federal agency
prepare an annual performance plan, including specific performance indicators that can be
verified and validated. The Workforce Investment Act (WIA) and implementing regulations
require the states to submit annual progress reports addressing adult, youth, and dislocated
worker programs’ performance measures that can be validated and verified as accurate, and gives
the states monitoring and oversight responsibility for this performance information.

Because of insufficient local, state, and Federal oversight, the Employment and Training
Administration (ETA) has little assurance that the state-reported WIA performance outcomes
data are either accurate or verifiable. Without validating 100 percent the data to assure that the
measures (and underlying data used to compute these measures) are accurate, states should use a
statistically valid sampling method for validating reported data. A scientific statistical approach
to data validation would provide consistent definitions of key program terms and documentation
guidelines.

The Office of Inspector General (OIG) conducted a performance audit to determine what
oversight and monitoring procedures were in place to ensure that state-reported WIA
performance data were accurate and supportable. Our audit covered procedures at the ETA
national and regional offices, 4 states (Colorado, Louisiana, Kentucky, and California), and 12
Local Workforce Investment Boards (LWIB)/One Stop Centers 1 to determine the extent of
performance data monitoring at each program level.

Our audit of WIA performance data oversight at the local, state, and Federal levels disclosed the
following:

        •    Local level

Although 4 of the 12 One Stops monitored their contractors, none of the 12 One Stops had
adequately documented procedures for validation of participant performance data. Sufficient
procedures would include policies addressing data validation, monitoring guidelines, and a
statistically valid approach to correcting management information system (MIS) data for the
reporting system as a whole.




1
    We visited three One Stops for each of the four states we visited.


U.S. Department of Labor - Office of Inspector General

                                                            1
WIA Performance Outcomes Reporting Oversight


        •    State Level

Two of the four states had not monitored performance data at the One Stop case file level.
Additionally, none of the four states had sufficient procedures to assure the accuracy of their
reported performance data. Using scientific sampling and statistical estimation would provide
the states a basis for assuring the accuracy of the reported performance data.

    •       Federal Level

ETA has limited its monitoring procedures over WIA performance outcomes data to desk
reviews and computer edit checks to determine the reasonableness of the data reported. ETA
did not have plans to implement a formal monitoring process at the Federal level. ETA has
issued field memoranda and guidance letters to the states as instruction on monitoring and
validating the performance data, indicating the states’ responsibilities for ensuring the integrity
of their reported performance data. However, as of the end of our onsite fieldwork, the regional
ETA staff had not reviewed any of the states’ monitoring policies and procedures that might
have been in place to ensure the integrity of the reported performance data. However, ETA
recognizes that additional steps are needed to assure the reliability of WIA performance
outcomes data. Development of a comprehensive data validation and verification system has
been funded through a contract with Mathematica Policy Research, Inc.

We recommend the Assistant Secretary for Employment and Training:

    Ø Continue ETA’s current efforts to establish a standardized, statistical method for WIA
      performance data validation and require the states to either use this method or have an
      equivalent, documented method in place to ensure data integrity.

    Ø Provide the states with consistent definitions and documentation guidelines to ensure that
      all states are reporting consistent data.

    Ø Have the regional ETA representatives:

               o require the states to include data validation in their monitoring policies/programs;
               o require the states to establish minimum documentation standards to support the
                 activities and outcomes reported; and
               o require the states to independently calculate the reported performance measures
                 as part of their performance monitoring.




U.S. Department of Labor - Office of Inspector General

                                                         2
WIA Performance Outcomes Reporting Oversight

ETA’s Response to the Draft Report

ETA agreed with our conclusions and responded that they are well on their way to developing an
effective strategy for validating and verifying performance outcomes data. ETA has been
developing a systematic approach to data validation and verification that includes the framework
for a standardized and statistical method for WIA performance data validation and anticipates
announcing the ir data validation policy by December of this year. ETA did not respond directly
to the recommendations in our report because they believe the substance of the recommendations
in our report falls within the framework of ETA’s data validation project and their current plan
for deployment and execution.

OIG’s Conclusion

As long as ETA’s statistical approach to data validation and implementing policy address our
specific recommendations, we agree with ETA’s approach to rectify this issue. However, ETA’s
response does not indicate whether this data validation process will be mandatory for all states or
voluntary. If some states voluntarily validate performance data and others do not, ETA still will
not have assurance that national performance data are accurate.

Based on ETA’s planned actions, all recommendations in this report are resolved. To close these
recommendations, ETA needs to provide us with evidence that the planned validation system and
policy guidance have been implemented.




U.S. Department of Labor - Office of Inspector General

                                                         3
WIA Performance Outcomes Reporting Oversight

                                       BACKGROUND

Origin and Purpose of the Workforce Investment Act Performance Reporting

The Government Performance and Results Act (GPRA) requires that each Federal agency
prepare an annual performance plan, including specific performance indicators that can be
verified and validated. The Department of Labor prepares an Annual Report on Performance
and Accountability each fiscal year to comply with this requirement.

The Workforce Investment Act (WIA) establishes a comprehensive performance accountability
system, comprised of indicators of performance for each major program component (adult,
dislocated worker, and youth). The WIA and implementing regulations also:

    Ø require that states submit an annual progress report on the performance measures
      required for each of the three programs under Title 1, Subpart B (youth, adult, and
      dislocated worker programs) that can be validated and verified as accurate, and

    Ø give ETA and the states monitoring and oversight responsibility for this performance
       information.

ETA’s guid ing principle states: We will be faithful to the American taxpayer and support
programs that are outcome-focused and results-oriented. With the emphasis on performance
reporting in the WIA program, performance data must accurately portray program
accomplishments.


Principal Criteria:

The following authorities deal with the accuracy and supportability of reported performance
data:

    Ø GPRA Section 1115(a)(6) requires that the performance plans “describe the means to be
      used to verify and validate measured values.”

    Ø WIA Chapter 6, Section 136(d)(1) requires that states submit an annual report showing
      the states’ progress on their required WIA core and customer satisfaction performance
      measures and any additional information about the states’ programs.

    Ø 20 CFR 667.300(a) requires that: “All States and other direct grant recipients must report
      . . . participant, and performance data in accordance with instructions issued by DOL.”




U.S. Department of Labor - Office of Inspector General

                                                         4
WIA Performance Outcomes Reporting Oversight

    Ø 20 CFR 667.300(e)(2): “States submitting annual performance progress reports that
      cannot be validated or verified as accurately counting and reporting activities in
      accordance with the reporting instructions, may be treated as failing to submit annual
      reports, and be subject to sanction. . . .” [Emphasis added.]

    Ø 20 CFR 667.400(a): “The Secretary is authorized to monitor all recipients and
      subrecipients of all grants awarded and funds expended under WIA title I to determine
      compliance with the Act and these regulations. . . . Federal oversight will be conducted
      primarily at the recipient level.” [Emphasis added.]

    Ø 20 CFR 667.400(b): “In each fiscal year, we will also conduct in-depth reviews in
      several States, including . . . performance audits, to assure that funds are spent in
      accordance with the Act. Priority for such in-depth reviews will be given to States not
      meeting annual adjusted levels of performance.” [Emphasis added.]




U.S. Department of Labor - Office of Inspector General

                                                         5
WIA Performance Outcomes Reporting Oversight


                            OBJECTIVE, SCOPE, AND METHODOLOGY
Audit Objective:

Our audit objective was to answer the following questions:

    Ø Do the Local Workforce Investment Boards/One Stop Centers verify/validate their
      performance data? If so, how is this data being verified/validated?

    Ø Are the states monitoring the performance information from the Local Workforce
      Investment Boards/One Stop Centers used to compile their annual performance reports?

    Ø How is ETA ensuring the states’ WIA performance information used in the states’ annual
      performance reports is accurate and verifiable?

Our intent was to determine what systems were in place at the local, state, and regional levels to
ensure the accuracy of the performance data reported. We understand this audit is being
conducted early in the program’s history (the formal performance reporting package was not
approved until March 2001 - 9 months into the program). However, performance data has been
reported since inception of the program (state quarterly reports for performance data as of
January 2001 and state annual reports due December 2001 included performance data starting
July 1, 2000 – inception of the program). The Act and regulations require the reported data to be
accurate and verifiable.

Audit Scope and Methodology:

Our audit period covered July 1, 2000 2 (inception of WIA), through October 26, 2001
(completion of onsite fieldwork), with periodic follow- up of selected issues with ETA prior to
issuing this draft report.

At the national ETA level:

    Ø We interviewed members of ETA’s WIA performance management team to gain an
      understanding of the national level monitoring and/or data validation procedures.

    Ø We reviewed ETA’s guidance detailing monitoring responsibilities and/or required
      procedures to ensure the data integrity.



2
  Kentucky implemented its WIA’s program early on July 1, 1999. Therefore, our audit coverage in Kentucky also
included the period July 1, 1999, through June 30, 2000.


U.S. Department of Labor - Office of Inspector General

                                                         6
WIA Performance Outcomes Reporting Oversight

At the regional/state/local level:

    Ø We judgmentally selected a sample of four states (California, Colorado, Kentucky, and
      Louisiana) to determine the extent of the monitoring being performed:

            o We interviewed ETA regional representatives for the four states to determine
              what regional monitoring and/or data validation procedures were being
              performed.

            o We interviewed state WIA program and management information system (MIS)
              staff to determine the extent of their monitoring efforts and policy guidance
              regarding performance data.

            o For each state, we visited three One Stops to determine what procedures were
              being performed locally to ensure the performance data were accurate and
              consistent.

After completing the fieldwork in each state, we issued Statements of Fact to each state,
including the work performed at the One Stops. The states’ comments were considered in
preparing this report.

Sufficient work was performed on the management controls to gain an understanding of the WIA
performance reporting process. Our scope did not encompass examining the adequacy of the
management controls.

Our performance audit was performed in accordance with generally accepted government
auditing standards issued by the Comptroller General of the United States.




U.S. Department of Labor - Office of Inspector General

                                                         7
WIA Performance Outcomes Reporting Oversight


                                           AUDIT RESULTS

ETA has little assurance that the state-reported Workforce Investment Act performance
outcomes data are either accurate or verifiable.

In the Fiscal Year (FY) 2001 annual report, “Report on Performance and Accountability,” the
Secretary stated:

        The performance . . . data presented in this report is fundamentally complete and
        reliable as outlined in the guidance available from the Office of Management and
        Budget. While we have identified no material inadequacies, this report describes
        our continuing efforts to strengthen the quality . . . of the Department’s
        performance information. . . . (Page vii)

                               .       .      .          .   .   .    .

        The challenges to performance measurement vary significantly among DOL’s
        programs, with the data sources and the agencies’ level of control over the
        reporting systems representing the primary factors influencing the reliability
        and usefulness of the Department’s performance information. [Emphasis
        added.] (Page 5)

The data used to determine the WIA program’s performance outcomes are initiated at the Local
Workforce Investment Board (LWIB)/One Stop level and then summarized at the state level.
ETA relies on the states’ annual performance reports to compile the WIA program’s national
performance outcomes. The reliability of this performance information is dependent on data
integrity at all three levels of go vernment.

While the Secretary (quoted above) indicates that the Employment and Training Administration
is developing a verification and validation process to assist the states to ensure the accuracy of
performance data, it will be sometime before this system is operational on a national basis for
WIA data validation. Furthermore, states use of this system, at least presently, will be voluntary.

During our audit period, performance data oversight was insufficient at the local, state, and
Federal levels of WIA administration.




U.S. Department of Labor - Office of Inspector General

                                                         8
WIA Performance Outcomes Reporting Oversight

        A. Local level: None of the 12 One Stops had adequately documented procedures
           for validation of participant performance data.

Of the 12 One Stops we visited:

    Ø Six One Stops had written monitoring policies that contained only minimal data
      validation procedures. In addition, only two of the six performed any performance data
      monitoring.

    Ø Two One Stops used a monitoring schedule and guide to monitor their programs, but did
      not have formal written policies. The monitoring guides contained minimal procedures
      to validate data.

    Ø Four other One Stops did not have written monitoring policies and did not perform
      formal monitoring; however, they did perform some informal monitoring; i.e., they ran
      routine error reports and case managers checked exceptions, or supervisors performed
      informal routine case file reviews.

Some One Stops indicated that they also relied on the states’ annual financial and performance
monitoring to verify the accuracy and supportability of the participant data. However, the initial
quality control review should be done at the local level. Additionally, state monitoring has been
limited. (See findings B and C.)

The current formal and informal monitoring being conducted will not ensure the validity of
reported participant performance outcomes.

For a monitoring policy to ensure that the data entered into the management information system
is accurate and supportable:

    Ø The policy should have a statistically valid approach to data validation for reporting as a
      whole.

    Ø The One Stops must clearly specify documentation requirements to support activities and
      outcomes reported and define key program terms. Furthermore, these requirements and
      definitions must be consistently applied.




U.S. Department of Labor - Office of Inspector General

                                                         9
WIA Performance Outcomes Reporting Oversight

Statistical approach to data validation:

Although 3 of the 12 sites had case file reviews as part of their monitoring procedures, the
amount of MIS data validation was minimal, and in no cases did the monitoring report require
the staff to change any MIS data. The majority of the monitoring report findings were
documentation issues; e.g., incomplete participant applications, assessments, or case notes. The
small amount of monitoring being done at the local level did not employ a statistical approach to
data validation. Such an approach would identify tolerable error limits and require the specific
verification of key program activities or outcomes to determine the extent of any over- or
understatement of performance data.

Documentation requirements:

Regarding local guidance to help support the monitoring efforts, only 2 of the 12 One Stops --
both from the same state -- had written policies outlining the documentation requirements to
support reported participant activities and outcomes. Most One Stops used the general
documentation guidelines from ETA’s TEGL 7-99, which do not address all documentation
requirements at the case file level.

Definitions of key program terms:

Only 3 of the 12 One Stops (all from the same state) had formal local policies and procedures
clarifying program definitions. However, none of these three One Stops clarified “credential,”
and only one further clarified “staff- assisted services” to address the current local government
discretion in defining participants.

TEGL 7-99 is ETA’s main guidance for providing documentation requirements and program
definitions used to collect data that is the basis for reporting program outcomes for the 17 WIA
performance measures. Attainment of a recognized credential, as defined in the guidance, adds
flexibility for states and LWIBs to further identify attainment of skills particular to their local
area. From a data validation standpoint, additional problems are caused because this open-ended
definition leads to inconsistent use of this term and, as a result, any measures that include
credential attainment have the potential for a wide variety of meanings.

TEGL 7-99 also states “an individual must receive a WIA funded staff- assisted core, intensive,
or training service to trigger registration and include the person in the core measure.” GAO’s
February 2002 report titled Workforce Investment Act – Improvements Needed in Performance
Measures to Provide a More Accurate Picture of WIA’s Effectiveness, highlights this issue.
GAO stated that although ETA’s guidance provides examples of when to register adult job
seekers (all youth who receive WIA-funded services are required to be registered), it also
sometimes requires staff to make subtle and subjective distinctions. As a result, the state can
decide what cons titutes significant staff assistance which has the capability of manipulating


U.S. Department of Labor - Office of Inspector General

                                                     10
WIA Performance Outcomes Reporting Oversight

which adults may be counted in the performance measures and when they are included. For
example, GAO found that two local areas in the same state were registering job seekers at
different points in time – one registered most clients (even with minimal staff assistance) and
another local area only registered those clients who required significant staff assistance and were
likely to benefit from intensive services. Consequently, it is imperative that a consistent
definition of “participant” is used to ensure comparability of all adult performance measures and
maintain the integrity of the performance measurement process.

Without clear documentation requirements and definitions of key program terms, the validity and
supportability of the data entered into the MIS (which are transmitted to the states for
compilation of the statewide performance measures) are questionable. This lack of consistent
terms and supporting documentatio n requirements, as well as the lack of a formal process to
validate the initial data entered into the MIS at the One Stop level, results in a lack of assurance
that the participant activity and performance data are accurate and supportable at the data source.


        B. State level: Two of four states had not monitored performance data at the One
           Stop case file level.

All four states had some type of formal monitoring policy issued by their operating WIA
program agency. However, as of the date of our fieldwork, only two of the four states had
performed their annual monitoring that included reviewing case file documentation to support
reported enrollment, activity, and outcome information. The other two states were still focusing
on technical assistance to he lp the LWIBs/One Stops implement their programs. The two states
that were not monitoring indicated that they were working on their formal monitoring guides and
planned to begin monitoring within the next program year.

None of the states’ monitoring pla ns included having the program monitoring staff recalculate
the local performance measures. The states reviewed the case file documentation to ensure it
supported the activities reported but did not follow up on those activities to determine whether
they were ultimately reported correctly and timely in the states’ performance measures.

Additionally, as previously stated, a statistically valid data validation system requires clear
documentation requirements and definitions of key program terms to ensure consistent
application of terms and support for activities and outcomes reported. We reviewed the states’
guidance to determine what documentation requirements and program definitions were in place
to ensure this consistency.

Documentation requirements:

    Ø None of the states had formal policies for case file documentation requirements for
      activities or outcomes to ensure consistent supportability for the activities and outcomes



U.S. Department of Labor - Office of Inspector General

                                                     11
WIA Performance Outcomes Reporting Oversight

         reported. They relied on the general documentation requirements in ETA’s TEGL 7-99,
         which does not address documentation for all activities at the case file level.

         o One state had references in computer “help” screens for outcome documentation
           requirements.

         o One state had general instructions on the MIS input form to have “supporting
           documentation” in the case file.

         o Two other states did not provide any explanation as to what documentation was
           required to support activities and outcomes reported.

Definitions of key program terms:

    Ø None of the states had formal policy documents further defining key program definitions
      such as “participant” or “credential.”

    Ø One state had a policy instruction requiring its One Stops to further define credential, but
      none of the other states had credential defined (and no further definition was found at the
      local level for the one state).


         C. State level: None of the four states we reviewed had undertaken procedures to
            assure the accuracy of their reported performance data.

The states are responsible for assuring the WIA performance data are accurate and supportable.
None of the four states we visited had formal data validation procedures to assure the accuracy of
reported performance data.

For the states to assure that the measures (and underlying data used to compute these measures)
are accurate, there needs to be a statistically valid method with a tolerable error rate established
and detailed definitions and documentation guidelines. Using scientific sampling and associated
statistical estimation methods would ensure validation systems wo uld have the following
components:

     Ø    statistical sampling method;
     Ø    tolerable error rate established;
     Ø    clear program definitions;
     Ø    defined documentation requirements;
     Ø    procedures established to correct errors;
     Ø    procedures established to track error rates;
     Ø    procedures established for adjusting reported performance when the tolerable error rate
          is exceeded; and

U.S. Department of Labor - Office of Inspector General

                                                     12
WIA Performance Outcomes Reporting Oversight

     Ø a conclusion on whether the data is accurate and supportable based on this standardized
       method, with auditable documentation to support the conclusion.

All four states we visited had formal monitoring policies in place; however, none of these
policies provided a statistically valid approach. All of the monitoring procedures we reviewed
were focused on compliance monitoring and were not specifically intended to validate the MIS’
activity and outcomes data. Merely monitoring for compliance does not provide the level of
assurance necessary to conclude that the performance data are accurately reported.

With outside parties’ reliance on the performance data as well as its use by ETA to determine
grantees’ financial incentives and sanctions, formalized systems should be in place specifically
to verify and validate data to assure the integrity of the reported information.


        D. Federal level: ETA limited its re gional and national monitoring procedures over
           WIA outcomes data to desk reviews and computer edit checks.

ETA provides two levels of oversight to WIA performance data: regional offices and the
national WIA performance review team. The regional offices have direct communication with
the states, and the national office communicates with the regions and states, if necessary. ETA
issued Field Memorandum (FM) 18-01, May 30, 2001, as guidance to regional ETA staff and
states for monitoring and validating the WIA performance data. FM 18-01 states that the
regions are required to review two separate participant reports: the WIA Quarterly Performance
Report and the WIA Annual Performance Report.

The regional offices review the states’ electronically submitted quarterly reports for approval.
All regions are instructed to perform the same procedures. The responsible ETA regional
representative has 10 days to review the states’ reports for accuracy and reasonableness (using
the general procedures discussed in FM 18-01 below) and approve the report for final
transmission to national ETA. However, this regional approval represents only a desk review of
the report, intended to look for the reasonableness of the data and compare it to the state’s
expenditure reports to ensure the information is consistent.

One regional office provided more technical assistance at the local level -- sometimes resulting
from review of the states’ quarterly reports -- than the other regions. These technical assistance
visits sometimes included reviews of participant case file and MIS data. However, these reviews
were on an as-needed basis with no formal data validation procedures (i.e., using a written
monitoring guide, requiring a written response by the LWIB, etc.). Although the LWIBs found
these technical assistance/training sessions very helpful, these sessions did not constitute
sufficient procedures to ensure the accuracy of the reported data as a whole.




U.S. Department of Labor - Office of Inspector General

                                                     13
WIA Performance Outcomes Reporting Oversight

ETA’s Office of Technical and Information Systems (OTIS) is respons ible for WIA data validity
and verification at the national level. OTIS’ national efforts are focused on validating that data
already entered into the automated system are logical and within certain parameters through the
use of numerous data edit checks. ETA had not and currently does not plan to implement a
formal monitoring guide for Federal- level oversight.

National ETA cited Training and Employment Guidance Letter (TEGL) 14-00, Attachments F
and G, as the applicable guidance for reviewing and accepting these state reports. In addition,
FM 18-01 instructed the regional ETA staff to consider timeliness, the amount of data reported,
and the reasonableness of data reported. Reasonableness was further clarified in FM 18-01 as
using basic data entry range checking to look for outliers, improbable associations, and
cataloguing the error types found. The guidance stated that the regional offices were required to
begin validation of the quarterly reports with the fourth quarter submission (April through June
2001). Meanwhile, the regions were expected to become familiar with the data submissions for
the second and third quarters of Program Year (PY) 2000 (October 2000 through March 2001).

FM 18-01 further directed the states to establish standard operating procedures for data
collection and handling to ensure the quality and integrity of data over time. At a minimum,
states must address data verification and validation in their procedures to ensure that the resulting
database and reports are certifiably accurate. ETA further clarified its direction to the states in
TEGL 14-00, Change 1, November 19, 2001, that regional ETA offices had been instructed on
data validation procedures and were required to become thoroughly familiar with data collection
efforts the states have in place, including definitions for data verification and validation. The
additional guidance also provided examples of procedures for data collection and handling to
ensure that the resulting database is accurate.

These examples included:

    Ø checking the accuracy of the computerized records against the original source, usually
      hard copies of records;

    Ø random call backs to participants or contacting other sources to verify the accuracy of
      information collected; and

    Ø having a trained staff member evaluate data collection efforts by randomly observing
      interviews and other data collection methods.

This clarification was issued after our onsite fieldwork was completed.

Data supportability at the data entry/case file level is the states’ responsibility, and currently
regional ETA has no plans to review the supportability of the performance data at the case file
level.


U.S. Department of Labor - Office of Inspector General

                                                     14
WIA Performance Outcomes Reporting Oversight


Conclusion

It is questionable whether the states can ensure that the performance data they are submitting are
accurate and supportable. This is as a result of: the lack of monitoring in the first year of WIA
performance reporting; the lack of a statistically valid data validation approach; and the lack of
clearly needed documentation requirements and clearer definitions of key program terms.
Consequently, ETA cannot ensure that the WIA performance outcomes reported since inception
of the program are valid and verifiable.

ETA has initiated a Data Validation and Verification Project conducted by Mathematica Policy
Research, Inc., to develop a comprehensive ETA performance data validation and verification
computer program to strike the proper balance between data integrity and efficiency. One of its
study objectives outlined in the summary document included determining what will constitute
sufficient proof that the data are correct – finding an acceptable balance between absolute proof
and resource constraints.

The pilot-testing phase of the study will evaluate the computer program that has been developed.
One large, one medium, and one small state will participate in testing the program. This
program involves recalculating the performance measures based on the Workforce Investment
Act Standardized Record Data (WIASRD) information3 submitted to ETA and selecting a
statistical sample of data elements for testing at the source documentation level. Each state using
this program will have standardized documentation requirements and definitions to ensure
consistency in the data. If unacceptable error rates are found, ETA will have procedures in place
to ensure the data are corrected. ETA is still determining policy for addressing instances of
noncompliance with the established data validity standards. Although this program will be
voluntary for states to implement, ETA is committed to ensuring that there will be strong
incentives for the states to use this program.

However, until the proposed program is implemented, ETA will continue to operate without any
substantive assurance that the performance results that it reports for WIA are reliable.




3
  The WIASRD system is ETA’s collection of individual records containing activity and outcomes information for
each WIA program participant. The individual state participant data that make up the WIASRD is the foundation
for the WIA program’s quarterly and annual reports.


U.S. Department of Labor - Office of Inspector General

                                                      15
WIA Performance Outcomes Reporting Oversight


                                RECOMMENDATIONS


We recommend the Assistant Secretary for Employment and Training:

    Ø Continue ETA’s current efforts to establish a standardized, statistical method for WIA
      performance data validation and require the states to either use this method or have an
      equivalent, documented method in place to ensure data integrity.

    Ø Provide the states with consistent definitions and documentation guidelines to ensure that
      all states are reporting consistent data.

    Ø Have the regional ETA representatives:

             o require the states to include data validation in their monitoring policies/programs;
             o require the states to establish minimum documentation standards to support the
               activities and outcomes reported; and
             o require the states to independently calculate the reported performance measures
               as part of their performance monitoring.




U.S. Department of Labor - Office of Inspector General

                                                     16
WIA Performance Outcomes Reporting Oversight


                   ETA’S RESPONSE AND OIG’S CONCLUSION


ETA agreed with our conclusions and responded that although they are concerned about the
issues raised in our draft report, they are well on their way to developing an effective strategy for
validating and verifying performance outcomes data. ETA has been developing a systematic
approach to data validation and verification that includes the framework for a standardized and
statistical method for WIA performance data validation and anticipates announcing their data
validation policy by December of this year. ETA did not respond directly to the audit report’s
recommendations because they believe the substance of the recommendations is all within the
framework of ETA’s data validation project and their current plan for deployment and execution.
ETA’s response is included in its entirety as an Appendix to this report.

As long as ETA’s statistical approach to data validation and implementing policy address our
specific recommendations, we agree with ETA’s approach to rectify this issue. However, ETA’s
response does not indicate whether this data validation process will be mandatory for all states or
voluntary. If some states voluntarily validate performance data and others do not, ETA still will
not have assurance that national performance data are accurate.

Based on ETA’s planned actions, all recommendations in this report are resolved. To close these
recommendations, ETA needs to provide us with evidence that the planned validation system and
policy guidance have been implemented.

We would like to emphasize that the OIG had not provided specific technical assistance on any
portion of the monitoring process in effect at the time of our audit. Although the OIG entered
into a statement of work with ETA to provide technical assistance on their data validation project
during the time of our audit field work, the results of the project were not yet implemented and
were not included as part of OIG’s audit field work.




U.S. Department of Labor - Office of Inspector General

                                                     17
WIA Performance Outcomes Reporting Oversight




    ETA’s RESPONSE TO OIG’S DRAFT REPORT




U.S. Department of Labor - Office of Inspector General

                                                     18
WIA Performance Outcomes Reporting Oversight




U.S. Department of Labor - Office of Inspector General

                                                     19
WIA Performance Outcomes Reporting Oversight




U.S. Department of Labor - Office of Inspector General

                                                     20
